OFFICE OF INSPECTOR GENERAL


AUDIT OF THE
USAID/HONDURAS TRADE,
INVESTMENT, AND
COMPETITIVENESS
PROGRAM
AUDIT REPORT NO. 1-522-09-006-P
FEBRUARY 26, 2009




SAN SALVADOR, EL SALVADOR
                    Office of Inspector General




February 26, 2009

MEMORANDUM

TO:                 USAID/Honduras Director, William Brands

FROM:               RIG/San Salvador, Timothy E. Cox /s/

SUBJECT:            Audit of the USAID/Honduras Trade, Investment, and Competitiveness Policy
                    Program (Report No. 1-522-09-006-P)

This memorandum transmits our final report on the subject audit. We have carefully
considered your comments on the draft report in finalizing the audit report and have included
your response in appendix II of the report.

The report includes eight recommendations to improve accountability and implementation of
the trade, investment, and competitiveness program in the future. Based on your
comments, management decisions can be made on Recommendation Nos. 1, 2, 3, 4, 5, 6,
and 8 once the mission provides target dates for completion of the planned actions. Based
on the mission’s comments and documents provided following the audit fieldwork, we have
determined that final action has been made regarding Recommendation No. 7.
Determination of final action on the remaining recommendations will be made by the Audit
Performance and Compliance Division (M/CFO/APC).

I appreciate the mission’s support assistance during this audit.




U.S. Agency for International Development
Regional Inspector General/San Salvador
Unit, 3110; APO, AA 34023
Tel: (503) 2501-2999 Fax (503) 2228-5459
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 3

Audit Objective .................................................................................................................. 4

Audit Findings ................................................................................................................. 5

     Has the Foundation for Investment and Development of Exports (FIDE)
     achieved planned results and what has been the impact? ........................................ 5

          USAID/Honduras and FIDE Had Different Expectations for the
          Program………..……….………….......…….……….......………….......………….....7

          Performance Measurement and Reporting Need
          Improvement..……………..…..………………………….…………..……..…..…… 10

Evaluation of Management Comments ....................................................................... 14

Appendix I – Scope and Methodology ........................................................................ 15

Appendix II – Management Comments ....................................................................... 17
SUMMARY OF RESULTS
Honduras, the second poorest country in Central America, signed the Dominican
Republic-Central America-United States Free Trade Agreement (DR-CAFTA) with six
other countries on August 5, 2004. Under DR-CAFTA, Honduras is required to
undertake reforms to liberalize markets and provide greater transparency in customs
administration, protection of intellectual property rights, investment, financial services,
government procurement, and sanitary and phyto-sanitary requirements. (See page 3.)

As part of its fiscal year 2009 audit plan, the Regional Inspector General/San Salvador
performed this audit to answer the following question (page 4):

•   Has the Foundation for Investment and Development of Exports (FIDE) achieved
    planned results and what has been the impact?

FIDE performed well in terms of conducting studies and analyses and presenting
findings to interested parties. FIDE did not perform as well with respect to influencing
actions by the Government of Honduras to make needed reforms to comply with DR-
CAFTA requirements (page 5). USAID/Honduras officials and FIDE officials have
markedly different understandings of the purpose of the FIDE program financed by
USAID/Honduras. Current USAID/Honduras officials are frustrated that FIDE has not
devoted more attention and energy to trying to influence the Government of Honduras to
undertake needed reforms, but FIDE officials think that this would be unproductive or
perhaps even counterproductive (page 7). Additionally, performance measurement and
reporting need to be strengthened. Performance reporting was oriented toward lower-
level outputs at the expense of reporting on higher-level impacts and outcomes, and
much of the reported information could not be relied on as a basis for drawing
conclusions regarding the program’s performance (page 10).

The report recommends that USAID/Honduras:

•   Ensure that future awards to support DR-CAFTA clearly describe the activities to
    be accomplished and the higher-level results they will contribute to (page 9).

•   Under its new strategy, finance an assessment to develop a prioritized list of
    actions needed to fully implement DR-CAFTA (page 9).

•   Develop a performance management plan in line with its new strategy that
    measures accomplishment of higher-level outcomes and lower-level outputs
    (page 12).

•   Develop performance indicators to measure higher-level outcomes and lower-
    level outputs under its new strategy (page 12).

•   Conduct data quality assessments for each indicator under its new strategy
    (page 12).

•   Establish procedures that require program cognizant technical officers to
    periodically verify results reported by partners (page 13).


                                                                                         1
•   Develop procedures to ensure compliance with USAID policy for portfolio reviews
    (page 13).

•   Correct its reporting on the FY 2007 performance indicators for the Trade,
    Investment, and Competitiveness program (page 13).

While expressing some disagreement with the report conclusions, USAID/Honduras agreed
with the recommendations and has developed plans to address the recommendations. Our
evaluation of management comments is provided in the Evaluation of Management
Comments section of this report (page 14), and USAID/Honduras’ comments are included
in appendix II.




                                                                                      2
BACKGROUND
Honduras, while classified as a transforming country under the Department of State-
USAID foreign assistance framework, is the second poorest country in Central America.
Its economy relies heavily on a narrow range of exports, notably bananas and coffee,
making it vulnerable to natural disasters and shifts in commodity prices. Investment in
the maquila (assembly industry) and non-traditional export sectors is slowly diversifying
the economy. Growth is heavily dependent on economic developments in the United
States, its largest trading partner, and new investment will depend on success in
reducing the high crime rate.

The United States concluded free trade agreement negotiations with Honduras in
December 2003. On August 5, 2004, the seven member countries signed the
Dominican Republic-Central America-United States Free Trade Agreement (DR-
CAFTA). 1 The agreement, which removes barriers to trade and investment in the region
in order to strengthen regional economic integration, entered into force for Honduras on
April 1, 2006. DR-CAFTA requires member countries to liberalize markets and increase
transparency in customs administration, rules of origin, protection of intellectual property
rights, investment, financial services, government procurement, and sanitary and phyto-
sanitary measures. Under the trade agreement, Honduras committed to ensure greater
procedural certainty and fairness in the administration of these procedures, and all DR-
CAFTA countries agreed to share information to combat illegal transshipment of goods.

According to the Foundation for Investment and Development of Exports (FIDE),
competitiveness is a determinate of economic growth and poverty reduction. As Table 1
below demonstrates, Honduras had significant advances in 2008 when compared to
other countries in the region; however, it still remains poorly positioned to being
competitive with the rest of the countries of the world.

Table 1: Competitiveness Rankings for Six DR-CAFTA Countries (Lower Scores Are
Better)
      Indicator      Honduras       Costa Rica      Dominican       Guatemala       El Salvador      Nicaragua
                                                     Republic
                    2006-   2007-   2006-   2007-   2006-   2007-   2006-   2007-   2006-   2007-   2006-       2007-
                    2007    2008    2007    2008    2007    2008    2007    2008    2007    2008    2007        2008
  Global
                      90       83     68       63    93     96    75    87     53     67    111                 101
  Competitiveness*
  Business
                     106       88     50       50    84     92    61    67     60     69    102                 113
  Competitiveness*
  Macroeconomic
                      87       71     81      111    85     91    79    86     64     67     89                 115
  Stability*
  Human
                     117      115     48       48    79     79   118   118    103    103    110                 110
  Development**
Source: FIDE (data are from World Economic Forum, The Global Competitiveness Report 2007-2008 and
the United Nations Development Program, Human Development Report 2007/2008: Fighting Climate
Change: Human Solidarity in a Divided World.)
* Rank among 125 countries covered.
** Rank among 177 countries covered. Data are for 2004 and 2005.


1
    DR-CAFTA signatories include the United States, Guatemala, El Salvador, Nicaragua,
    Honduras, the Dominican Republic, and Costa Rica.


                                                                                                            3
Several donors in addition to USAID support efforts to improve the trade and investment
climate. The World Bank funds a $30 million, 5-year program to facilitate business start-
ups, trade, and productivity. The Inter-American Development Bank funds an $11
million, 5-year program for trade capacity building, competitiveness, and trade
enhancement. According to USAID, both of these programs focus primarily on
enterprise development rather than on policy and regulatory reforms.

The Foundation for Investment and Development of Exports (FIDE) has implemented
the Trade, Investment, and Competitiveness Policy (TIC) Program funded by USAID
since 2005. The program has three interrelated components:

•   Support for the Center for Economic and Social Research and Proposals (CIPRES), a
    think tank within FIDE.

•   Direct support to the Government of Honduras in implementing free trade
    agreements—particularly DR-CAFTA.

•   Support to a second think tank, the Economic and Social Research Center (CIES),
    within the Honduras National Business Council (COHEP).

USAID obligations and expenditures as of June 30, 2008 for the FIDE award total $4.45
million and $3.7 million, respectively.

AUDIT OBJECTIVE
As part of its FY 2009 audit plan, the Regional Inspector General/San Salvador
performed an audit of the USAID/Honduras Trade, Investment, and Competitiveness
Policy program. The purpose of the audit was to answer the following question:

•   Has the Foundation for Investment and Development of Exports achieved planned
    results and what has been the impact?

The audit scope and methodology are described in Appendix I.




                                                                                       4
AUDIT FINDINGS
FIDE successfully completed a large number of studies dealing with trade,
competitiveness, and general economic issues, and it publicized the results through
well-attended presentations. However, the policy impact of these studies was very
limited. FIDE also hired consultants to work directly with Government of Honduras
agencies (the Secretariats of Finance, Industry and Commerce, Agriculture and
Livestock, and Labor and Social Security). These consultants helped the Government
weigh actions to increase competitiveness; helped it identify needed actions to comply
with DR-CAFTA, especially in the area of labor rights; and drafted sanitary and phyto-
sanitary regulations that were implemented by the Government.

USAID/Honduras used nine operational plan performance indicators to report on FIDE’s
performance with respect to activities and outputs. 2 During FY 2007 and FY 2008, FIDE
(and its sub-recipient, COHEP–the Honduran National Business Council) performed well
on six indicators that dealt with performing studies and holding events to discuss their
results, and stakeholders and clients express satisfaction with the quality of FIDE’s work
on these studies and presentations. FIDE did not perform as well on two other
indicators that measured success in influencing actions by the Government of Honduras
to comply with its commitments under DR-CAFTA. Also, USAID/Honduras asked FIDE
to report on a ninth indicator that measured the number of firms that received help to
build their export capacity. This indicator was not really applicable to FIDE, since USAID
did not finance any FIDE activities that would have helped build export capacity at the
firm level. In reporting on this indicator, FIDE reported the number of firms that attended
FIDE-sponsored events, but this was misleading since none of FIDE’s studies or events
focused on building export capacity at the firm level.

FIDE’s performance with respect to the operational plan performance indicators for FY
2007 and FY 2008 is summarized in Table 2. (The differences between reported and
audit amounts in Table 2 reflect inaccuracies revealed by audit testing of reported
results; see the related finding beginning on p. 10.)

Table 2. FIDE’s Performance in FY 2007 and FY 2008 as Measured by Operational
Plan Indicators

       Performance                       FY 2007                            FY 2008
         Indicator           Target     Reported     Verified     Target   Reported   Verified
                                                       by                               by
                                                     Auditors                         Auditors
Number of public and            2           2           2            3        2          0
private sector
standards setting
bodies that have
adopted
internationally
accepted guidelines
for standards setting

2
    Outputs are the most immediate results of USAID-financed activities.


                                                                                            5
    Performance                    FY 2007                        FY 2008
      Indicator          Target   Reported   Verified   Target   Reported   Verified
                                               by                             by
                                             Auditors                       Auditors
as a result of United
States Government
(USG) assistance.
Number of legal,           8        17         17         8         5          0
regulatory, or
institutional actions
taken to improve
implementation or
compliance with
international trade
and investment
agreements due to
support from USG
assisted
organizations.
Number of USG-             7        18         18         7        18         18
supported training
events held that
related to improving
the trade and
investment
environment.
Number of                 170       327        514       245       440        430
participants in trade
and investment
environment trainings.
Number of trade and        7        34         30        15        15          9
investment
environment
diagnostics
conducted.
Number of firms           50        223         0        75        62          0
receiving capacity
building assistance to
export.
Number of USG-             7        36         38        15         8          8
supported training
events on topics
related to investment
capacity building and
improving trade.
Number of                 170      3,737      1,797     1,000      284        284
participants in USG
supported trade and
investment capacity
building trainings.



                                                                                    6
    Performance                     FY 2007                           FY 2008
      Indicator          Target    Reported     Verified   Target    Reported     Verified
                                                  by                                by
                                                Auditors                          Auditors
Number of trade and         2          3           5          2          4           8
investment capacity
building diagnostics
conducted.

USAID/Honduras did not systematically report on the impact of FIDE’s efforts on higher-
level results or outcomes, mainly because the performance management plan (PMP)
has not been updated since 2005, and the PMP did not include any higher-level
performance indicators that could reasonably be attributed to FIDE’s efforts.

However, USAID/Honduras officials have informally expressed disappointment that FIDE
did not put more effort into advocacy efforts to persuade the Government of Honduras to
adopt reforms to comply with DR-CAFTA and take advantage of the new opportunities it
provides. From their point of view, FIDE was too concerned with performing studies and
not sufficiently concerned with persuading the Government of Honduras to implement
needed policy reforms that were identified by the studies. FIDE officials offer a
contrasting point of view. They say that the purpose of USAID’s assistance to FIDE was
to support establishment of a think tank within FIDE. They do not think that FIDE is well
positioned to engage in extensive lobbying of Government officials, although they do
hope to influence the Government through their studies, and they do convene high-level
audiences to discuss the results of each study when it is completed.

Another factor that limited accomplishments under the program was a budget cut in FY
2006 that reduced the estimated amount of the cooperative agreement with FIDE by
half, from $8.8 million to $4.3 million (later, the estimated amount was increased slightly
to $4.45 million). Among other impacts, the budget cut meant that FIDE could not hire
expatriate resident advisors that were originally planned to assist FIDE and the
Government of Honduras.          Instead, FIDE relied on short-term assistance from
international consultants, both to prepare studies for FIDE and to provide direct
assistance to the Government of Honduras.

USAID/Honduras and FIDE Had
Different Expectations for the Program
Summary: USAID awards are intended to formalize a mutual understanding between
USAID and its partners, and USAID often uses annual work plans and other
management tools to formalize subsidiary understandings. However, USAID/Honduras
officials and FIDE officials have markedly different understandings of the purpose of the
FIDE program financed by USAID/Honduras. Current USAID/Honduras officials are
frustrated that FIDE has not devoted more attention and energy to trying to influence the
Government of Honduras to undertake needed reforms, but FIDE officials think that this
would be unproductive or perhaps even counterproductive. FIDE’s interpretation of the
purpose of the agreement is supported by the agreement itself, and is also supported by
the USAID/Honduras’ former acting director. As a result, the program did not produce
the outcomes desired by current USAID/Honduras officials.



                                                                                         7
USAID’s Automated Directives System (ADS) Section 303.3.14 states that USAID must
ensure that awards reflect a mutual understanding between the parties to the award (i.e.,
in this case, a mutual understanding between FIDE and USAID/Honduras). It further
states that the program description must have clearly established goals that are realistic
and measurable, and represent the highest objective that the recipient can expect to
materially affect and for which it will be held accountable. The cooperative agreement
with FIDE incorporated a “continuous application” process in which FIDE was required to
reapply for assistance each year, and required submission of annual work plans,
providing additional opportunities to strengthen the mutual understanding between FIDE
and USAID/Honduras on the activities to be undertaken and the higher-level results or
outcomes these activities were expected to contribute to.

Despite these requirements and terms of the cooperative agreement, rather pronounced
differences exist between the visions that FIDE and USAID/Honduras have for the
program supported by the cooperative agreement. Under component 1, which supports
the operations of CIPRES, FIDE understands that the program is to support a think tank.
While FIDE held discussion events at the conclusion of each study it completed, where
the results and any recommendations were presented to the public, FIDE officials do not
think it would be appropriate or wise for FIDE to engage in extensive lobbying activities
or try to pressure the Government of Honduras to undertake specific policy reforms.

In contrast, USAID/Honduras expected that FIDE would actively influence the
Government to undertake reforms that would bring the Government into closer
compliance with its obligations under DR-CAFTA and help leverage the opportunities
provided by DR-CAFTA to reduce poverty and increase economic growth.

The written understandings between FIDE and USAID/Honduras, contained in the
cooperative agreement and in FIDE’s annual work plans, in our opinion, tend more to
support FIDE’s understanding of the purpose of the agreement: that is, the written
understandings focus heavily on studies and presentations with relatively little emphasis
on influencing policy. 3 FIDE’s understanding of the purpose of the program is also
supported by USAID/Honduras’ former acting director, who managed or helped oversee
the program from 2005 until mid-2008. His position is that the program was designed to
make better analysis and information available to the Government of Honduras, not to
pressure the Government into undertaking specific reforms.

A second, less important, difference in vision between FIDE and USAID/Honduras had
to do with the relationship between FIDE, the prime recipient of assistance under the
cooperative agreement, and COHEP, FIDE’s sub-recipient. FIDE officials state that they
were primarily interested in assistance to help establish a think tank in FIDE (CIPRES),
and that they only agreed to administer the sub-award with COHEP because this was a
condition imposed by USAID/Honduras. FIDE officials maintain that they have never

3
    This is not to say that FIDE had no influence on policy. Under component 1, FIDE helped draft
    a telecommunications law and helped garner support for the law. However, the law was
    subsequently tabled and its prospects are uncertain. Under component 2 of the cooperative
    agreement, in which FIDE hired consultants to work directly with Government of Honduras
    counterparts, USAID-financed consultants helped the Government weigh actions to increase
    competitiveness; helped it identify needed actions to comply with DR-CAFTA, especially in the
    area of labor rights; and drafted sanitary and phyto-sanitary regulations that were implemented
    by the Government.


                                                                                                 8
attempted to manage or supervise the sub-award with COHEP from a programmatic
perspective because most communication on programmatic issues took place directly
between USAID/Honduras and COHEP. FIDE officials envisioned their role as one of an
administrator, simply ensuring that COHEP followed USAID administrative requirements
that were applicable to the sub-award. In contrast, USAID/Honduras’ cognizant
technical officer for the program placed much more emphasis on FIDE’s responsibility to
manage COHEP’s activities to ensure that planned results were achieved. He noted
that USAID/Honduras has no direct legal relationship with COHEP and thus cannot
direct COHEP’s activities.        In this case, the written understandings between
USAID/Honduras and FIDE support USAID’s interpretation.

Why wasn’t USAID/Honduras able to use the annual work plan approval process to
harmonize FIDE’s activities with USAID’s wishes? USAID/Honduras officials say that
the process of approving the annual work plans was time consuming and somewhat
difficult, requiring a great deal of discussion with FIDE. They also make reference to the
close relationship that FIDE’s leadership maintained with senior U.S. Government
officials in Honduras, which they say made it difficult for them to press FIDE to undertake
activities that FIDE did not want to take responsibility for. From FIDE’s perspective, the
annual approval process was lengthy but not particularly difficult or contentious. They
say that they responded almost immediately to questions or clarifications requested by
USAID, and that they cannot explain why the process took so long because they are not
involved in USAID’s internal deliberations or approval processes. The different
expectations that USAID/Honduras and FIDE had for the program can also be traced to
weaknesses in performance measurement and reporting, as discussed in the following
section.

As a result of these issues, FIDE’s work under the cooperative agreement did not
produce the outcomes that current USAID/Honduras officials wanted. While FIDE
prepared a large number of studies that were competently prepared and well received,
the studies had a very limited impact on policy. In addition, opportunities to more closely
coordinate the work done by FIDE and COHEP were missed. While coordination did
occur, all parties agree that closer coordination would have been desirable, given the
similarity in the work done by the think tanks within FIDE and COHEP.

The current agreement with FIDE is expected to end in March 2009, but
USAID/Honduras expects to continue providing support for DR-CAFTA implementation
under a new country assistance strategy that is currently under review. No firm
decisions have been made about the form that this assistance will take or the
organizations that will receive assistance. Under the new strategy, it will be important to
reach clear mutual understandings with partners on the activities to be undertaken and
the higher-level results that the activities will contribute to.       Since DR-CAFTA
implementation is an important objective of the assistance approach contemplated under
the new strategy, it will be important to establish what actions are needed to fully
implement DR-CAFTA and prioritize them.

   Recommendation No. 1: We recommend that USAID/Honduras ensure that
   awards to support DR-CAFTA implementation under the new strategy clearly
   describe the activities to be supported and the higher-level results they will
   contribute to.

   Recommendation No. 2: We recommend that USAID/Honduras, under its new


                                                                                         9
   strategy, finance an assessment or study to develop a prioritized list of actions
   needed to implement DR-CAFTA.

Performance Measurement and
Reporting Need Improvement
Summary: USAID has a carefully defined system, described in ADS Chapter 203 and
other USAID guidance, for measuring and reporting on program performance. However,
USAID/Honduras has not fully defined appropriate performance indicators or verified that
accurate information on actual results is reported for the trade and investment program.
These issues arose because relatively little attention was focused on performance
measurement and reporting issues. As a result, performance reporting was oriented
toward lower-level outputs at the expense of reporting on higher-level impacts and
outcomes, and much of the reported information could not be relied on as a basis for
drawing conclusions regarding the program’s performance.

Ten of the 18 results that FIDE reported for FY 2007 and FY 2008 for the operational
plan were misstated by 12 to 100 percent (see Table 2 on page 5), making it unwise to
rely on the information to draw conclusions about the degree of success achieved under
the program. In addition, a sound monitoring, reporting, and evaluation system would
have helped ensure that the different expectations that USAID/Honduras and FIDE had
for the program were resolved at an earlier stage. The following sections of the report
discuss improvements that are needed in the PMP, one of the performance indicators
that has been used to measure accomplishment of outputs, data quality assessments,
periodic verification of reported results, and annual portfolio reviews.

PMP Needs Updating – A PMP is a performance management instrument used to help
plan and manage the process of assessing and reporting progress toward achieving a
strategic objective. It is a critical tool for planning, managing, and documenting how
performance data is collected and used. USAID’s ADS section 203.3.4.6 requires that
missions update PMPs regularly with new performance information, usually as part of
the annual portfolio review process. However, the PMP for the TIC program did not
include any performance indicators that would be significantly influenced by FIDE’s
efforts, and it had not been updated since January 2005. Mission staff explained that
the cooperative agreement with FIDE had not been awarded at the time that they
prepared the PMP, and that they were not familiar with the requirement to periodically
update the PMP.

An Inappropriate Performance Indicator Was Used – According to USAID’s
Performance Management Toolkit, after the PMP results framework is designed,
performance indicators should be developed and chosen. The performance indicators
should be selected to help show whether a program is progressing toward its objective.

The mission chose to use nine standard performance indicators to report on the TIC
program in the operational plan results report, as shown in Table 2. However, one of the
nine indicators (“number of firms receiving capacity-building assistance to export”) was
not applicable to FIDE’s program. In reporting on this indicator, FIDE reported the
number of firms that attended FIDE-sponsored events, but this left an incorrect
impression since none of FIDE’s studies or events focused on building export capacity at
the firm level.


                                                                                       10
FIDE officials stated that they were not provided with the detailed definitions of the
performance indicators, which would have indicated to them that this particular
performance indicator was inappropriate. However, the CTO for the trade and
investment program stated that FIDE was provided with the detailed definitions. At any
rate, the process of gathering and reporting information on the nine standard indicators
for the operational plan results report had the appearance of an ad hoc exercise that
was undertaken in haste, rather than an integral part of the program’s monitoring,
reporting, and evaluation system.

Data Quality Assessments Should Be Strengthened – ADS section 203.3.5 states
that performance data should be as complete, accurate, and consistent as management
needs and resources permit. To be useful in managing for results and credible for
reporting, performance data should meet reasonable standards of validity, integrity,
precision, reliability, timeliness. Additionally, USAID’s Performance Management Toolkit
suggests that missions should build data quality assessment into normal work
processes, including ongoing reviews and site visits.            Verifying and validating
performance information to ensure that data are of reasonable quality – including a
review of data collection, maintenance, and processing procedures to ensure that they
are consistently applied and continue to be adequate – should be part of these
assessments.

While USAID/Honduras completed data quality assessments for the nine indicators used
for operational plan results reporting, the assessments did not reflect the degree of
analytical rigor that would have been required to identify potential data quality issues.
For example, as noted in the previous section, the mission asked FIDE to report on the
“number of firms receiving capacity-building assistance to export,” when in fact the
USAID-financed program FIDE does not provide this type of assistance. However, the
data quality assessment for this indicator did not disclose this issue. The assessment
asked “do data clearly and directly measure what we intend to measure?” but the
assessment simply noted that “‘F’ has chosen this output level indicator as a measure of
progress under the operational plan.” This statement was incorrect: in reality, the F
Bureau provided missions with a list of standard indicators and the mission, not the F
Bureau, chose the indicators that it thought were applicable to its programs. 4

There is no indication in the documentation on the data quality assessments that the
assessments included any verification of data quality. While the assessments asked if
the margin of error in the data was acceptable, given the types of management
decisions to be made based on the data, the question was answered in every case with
the notation “n/a.”

Overall, the data quality assessments were conducted at a level of generality that made
them less than useful as a guide to data quality. As shown in Table 2, incorrect
information was reported for more than half of the indicators in FY 2007 and FY 2008.

4
    The Office of the Director of U.S. Foreign Assistance (F) was created in January 2006 to
    ensure that foreign assistance is used as effectively as possible to meet broad foreign policy
    objectives and to more fully align foreign assistance activities carried out by the State
    Department and USAID. The F Bureau has authority over State Department and USAID
    foreign assistance funding and programs and directs consolidated policy, planning, budget and
    implementation mechanisms.


                                                                                               11
Had the assessments included a verification of reported information (e.g., by comparing
reported numbers of participants in FIDE events with the participant lists), it is likely that
at least some of the errors we found would have been identified prior to reporting.

Periodic Verification of Reported Results Is Needed – ADS 203.3.5.2 states that
missions should be aware of the strengths and weaknesses of their data and to what
extent the data can be trusted to influence management decisions. Additionally,
USAID’s Performance Management Toolkit states that a practical approach to planning
data quality assessments includes an initial data quality assessment and periodic quality
reviews for completeness, accuracy, and consistency. USAID’s Monitoring and
Evaluation Guidebook indicates that data reliability can be confirmed by checking project
records, through spot checks during site visits, and by means of interviews with project
staff and beneficiaries.

Mission staff stated, and the implementing partner confirmed, that they did not verify the
performance results data being provided to them and which they reported. Periodic
verification by mission staff could have identified the erroneous reporting discussed
above.

Portfolio Reviews Need to Be More Thorough – As defined in ADS 203.3.7, a
portfolio review is a systematic analysis of the progress of a strategic objective, to
examine strategic and operational issues and to determine whether USAID-supported
activities are leading to accomplishment of planned results.

The documents provided by the mission for its FY 2007 portfolio review of the TIC
program included a presentation of program accomplishments but, judging from the
written record, did not include any discussion of issues or problems affecting the
program. A more searching, in-depth portfolio review process could have surfaced and
potentially resolved many of the issues discussed in this report – such as the different
expectations that the mission and FIDE had for the program – in a more timely fashion.

Mission staff explained that the focus of the portfolio reviews tended to be on the
information that the mission expected to report in the operational plan results report, not
on higher-level programmatic issues. Mission officials believed that there was further
documentation that described the full extent of the discussion during the TIC program
portfolio review, but they could not find it during the audit.

In sum, many of the issues that limited the effectiveness of the trade and investment
program were in part attributable to performance measurement and reporting issues. To
address these issues, we offer the following recommendations:

   Recommendation No. 3: We recommend that USAID/Honduras develop a
   performance management plan for its Trade, Investment, and Competitiveness
   program in line with its new strategy.

   Recommendation No. 4: We recommend that USAID/Honduras develop
   performance indicators to measure accomplishment of higher-level outcomes
   and lower-level outputs under its new strategy plan for its Trade, Investment, and
   Competitiveness program.

   Recommendation No. 5: We recommend that USAID/Honduras review USAID


                                                                                           12
directives and guidance regarding data quality assessments and conduct data
quality assessments of each indicator under the new strategy plan for its Trade,
Investment, and Competitiveness program in accordance with these directives
and guidance.

Recommendation No. 6: We recommend that USAID/Honduras establish
procedures requiring cognizant technical officers to periodically verify results
reported by partners under the Trade, Investment, and Competitiveness
program.

Recommendation No. 7: We recommend that USAID/Honduras review USAID
directives and guidance and develop mission procedures to ensure that portfolio
review requirements are met.

Recommendation No. 8: We recommend that USAID/Honduras correct its
reporting on the FY 2007 performance indicators for the Trade, Investment, and
Competitiveness program.




                                                                                   13
EVALUATION OF
MANAGEMENT COMMENTS
In response to our draft report, USAID/Honduras agreed to implement the
recommendations and has developed specific plans to address Recommendation Nos.
1, 2, 3, 4, 5, 6, and 8 and management decisions can be made once target dates to
complete the planned actions have been provided. With regard to Recommendation
Nos. 1, 2, 3, and 4, the mission stated that, under its new strategy, it will develop a
prioritized list of actions needed to support the implementation of DR-CAFTA, clearly
describe the activities to be supported and the higher-level results they will contribute to,
and develop a performance management plan that is in line with this new strategy. For
Recommendation Nos. 5, 6, and 8, the mission plans to perform data quality
assessments, periodically verify reported information, and correct information that was
reported incorrectly. The mission has taken final action on Recommendation No. 7 as it
provided evidence that the FY 2008 portfolio review process was performed in
accordance with USAID policy requirements.

In response to our audit finding that USAID/Honduras and FIDE had different
expectations for the program, the mission stated that language in the cooperative
agreement supports its position that component 1 of the program was designed to
influence Government of Honduras policy actions, not simply support establishment of a
think tank within FIDE. The cooperative agreement is a lengthy document with many
modifications: for example, the original application for assistance, incorporated into the
cooperative agreement as the program description, is 26 pages long without its annexes.
These passages include high-level statements of the overall purpose of the activity as
well as lists of specific activities that FIDE was expected to accomplish. Within these
passages, there is language that tends to support the mission’s viewpoint and other
language that tends to support FIDE’s viewpoint. In our view, however, it would be very
hard to make a case that FIDE has not complied with the terms of its agreement with
USAID, even though mission officials would have liked FIDE to try harder to influence
policy. We have modified our report to make it clearer that there are passages in the
cooperative agreement that support the mission’s viewpoint on this matter.

In responding to the report finding on performance measurement and reporting issues,
the mission stated that the new “F process,” which placed emphasis on reporting on
lower-level output indicators, led mission staff to focus on these new reporting
requirements. To some degree, this was done at the expense of other performance
measurement and reporting tools, like the performance management plan, that were
retained for internal program management purposes.

The mission’s comments in their entirety are included in appendix II.




                                                                                          14
                                                                              APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this performance audit in
accordance with generally accepted Government auditing standards. These standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit
objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objective. The purpose of the audit was to
determine if USAID/Honduras’ Trade, Investment, and Competitiveness (TIC) program
being conducted by the Foundation for Investment and Development of Exports (FIDE)
achieved planned results and what the impact has been.

In planning and performing the audit, we assessed management controls related to the
TIC program. The management controls identified included the mission performance
management plan (PMP), mission data quality assessments, program strategy
documents, program progress reports, the day-to-day interaction between mission staff
and program implementers, mission portfolio reviews, and the mission’s annual self-
assessment of management controls as required by the Federal Managers’ Financial
Integrity Act of 1982. As part of the audit, we applied various criteria that are applicable
to U.S. Government-funded programs through USAID.                  These standards and
requirements are designed to assist missions in managing programs to be more
effective and more results oriented; they included various USAID Automated Directive
System sections, handbooks, TIPS supplementary program advice from USAID’s Center
for Development Information and Evaluation, and other guidelines.

The audit covered the TIC program activities under the FIDE award, which falls under
one of the three intermediate results designed under the mission’s strategic objective,
“Economic Freedom: Open, Diversified, Expanding Economies.” The audit was
conducted in Tegucigalpa, Honduras from October 28 through November 14, 2008. Our
audit primarily focused on TIC program activities performed during fiscal years 2007 and
2008.

Methodology
To answer the audit objective, we met with personnel from USAID/Honduras, the main
implementing partner, the sub-award recipient under the program, and various
Government officials who participate, directly or indirectly, in the activities under the
program. We reviewed relevant program and management control documents produced
by USAID/Honduras; such as the program’s performance management plan, the
operational plan, award documents, and the mission’s results reporting documentation.
We also reviewed documents prepared by the partner such as annual work plans and
progress reports.

To assess whether planned results were achieved, we focused on nine performance
indicators included in the fiscal year 2007 operational plan. We conducted interviews
with mission and partner staff regarding processes for collecting, verifying, and reporting



                                                                                         15
                                                                          APPENDIX I


of performance results.

We validated reported program performance results for fiscal years 2007 and 2008 by
tracing mission-reported results back to the records maintained at the offices of the
implementing partner in order to support the existence and applicability of the results
claimed.




                                                                                    16
                                                                              APPENDIX II



MANAGEMENT COMMENTS
                                                                          January 30, 2009

Timothy E. Cox
Regional Inspector General
San Salvador, El Salvador

Subject:        Comments on the Draft Report of the Audit of USAID/Honduras’ Trade,
                Investment, and Competitiveness Policy Program (Report No. 1-522-09-
                00X-P)

Dear Mr. Cox:

Thank you for allowing us to review the subject draft report and for the professional and
cooperative way in which this audit was conducted. Following are our comments on the
results of the audit and on the report’s recommendations.

Audit Findings:

The two main audit findings included in the report warrant the following clarification:

1. USAID Honduras and FIDE had Different Expectations for the Program

The report includes the assertion put forth by FIDE that USAID/Honduras’s expectation
that the program was designed to achieve direct, meaningful impacts on Government of
Honduras (GoH) trade, investment and competitiveness policy and its capacity to
implement trade agreements is inconsistent with the cooperative agreement as written.
But FIDE’s original accepted proposal states in its Goal and Objectives section (p. 7)
that:

    The TIC program will contribute to create an enhanced policy framework and
   better business environment for greater private investment, employment and
   exports in Honduras and provide support to the implementation of FTAs,
   complementing other ongoing efforts.

   The TIC program will also “directly support the achievement of Strategic
   Objective 2, ‘Economic Freedom: Open Diversified Expanding Economies’ under
   USAID’s Honduras Country Plan in support of the USAID’s Central America And
   Mexico (CAM) Regional Strategy 2003-2008. Those activities are aimed at
   achieving the intermediate results such as improving Laws and Policies to
   promote and facilitate trade and investment, as well as to improve the countries
   capacity to negotiate and carry out FTA’s.”

This language is repeated in their continuing applications for 2006, 2007 and 2008. It is
the Mission’s view that this language (and the activity design document from which it
originated) is quite explicit in its expectation that this program’s work should have a
direct impact on Honduran policy and GoH institutional capacity.



                                                                                          17
                                                                             APPENDIX II


As well, the report includes FIDE’s assertion “that the purpose of USAID assistance to
FIDE was to support establishment of a think tank within FIDE (p. 7).” However, in the
original agreement’s Goals and Objectives section, the Program had three primary
objectives. Objective/Component 2 established the expectation that FIDE would be
working directly with the GoH Secretaries of Agriculture and Trade to improve their
institutional capacity to implement trade agreements. Objective/Component 3
established the expectation that FIDE would work directly with the private sector and its
institutions to improve and enhance their capacity for “policy formation.” There is no
indication in the Goals and Objectives section that one of these objectives supersedes or
takes priority over the others. The Mission takes exception to FIDE’s statement cited in
the report that, “they only agreed to administer the sub-award with COHEP because this
was a condition imposed by USAID/Honduras,” since FIDE submitted the proposal that
outlines the goals and objectives cited above, committing their organization to work in
good faith towards their achievement.

2. Performance Measurement and Reporting Need Improvement

The audit tried to answer the question whether FIDE achieved planned results and what
has been the impact. While we recognize the importance of this type of outcome/high-
level impact evaluation (as reflected in the Mission’s request to have the RIG evaluate
our FIDE-TIC program), we ask that the Agency-wide impact that the F process reforms
have had on Agency policy regarding program design, performance reporting and impact
evaluation be taken into account. We recognize that much of the ADS guidance cited in
the report has yet to be updated to take into account these reforms and so may have led
to the conclusion that the Mission was not fully complying with this Agency guidance.

For example, the new “F process” required that Missions begin using output indicators
related to the “Foreign Assistance Standardized Program Structure and Definitions” for
all reporting through the Operational Plan and Performance Report. The FY 2007
Operational Plan guidance, dated October 27, 2006, on page 5 states:

“Now, the Framework and associated standardized definitions will provide the
fundamental structure by which funds will be programmed and progress tracked, with all
foreign assistance resources allocated according to those common definitions and
related standard indicators.”

This same citation goes on to say that “the indicators that will be included in the
Operational Plan for targeting by Operating Units are only those at the program level
which are attributable to USG resources” (i.e., the output indicators inserted into the
Operational Plan by F). F would independently collect data on outcome and impact
indicators from secondary sources. Section B of “Guidance on F Indicators”, dated
December 26, 2006 states:

“Data for the indicators at the objective and area level are usually available from
secondary sources; they will be gathered by F and entered into the FACTS database.”

[Note: Current guidance on OP indicators can be found in the “Guidance Annex for FY
2008 Operational Plan, Phase II”, which can be accessed at:
http://inside.usaid.gov/A/F/docs/plan/guidance/2008OPAnnexes_UPDATED_FINAL.pdf.]

During this initial transition to the new F process, the future of PMPs (and much of the


                                                                                           18
                                                                          APPENDIX II


rest of existing ADS guidance) remained in doubt. However, while the Mission
continued using many of the outcome indicators shown in our Performance Monitoring
Plans as an internal tool for program management purposes, the primary emphasis of
the Mission’s efforts understandably became focused on monitoring and reporting to
Washington on the dozens of output indicators contained in the Operational Plan and
Performance Report. Some of the discrepancies found between the Program’s reported
results and those that the Auditors could verify is reflective of how retro-fitting the
common Operational Plan indicators onto an existing program did not always result in a
perfect match between what the implementer was trying to achieve and the definition of
the best available common indicator.

Audit Recommendations:

While we have raised some issues with the main findings of the report, we do generally
concur with the specific recommendations made in the report. They are a timely
reminder to revisit and reinforce our Mission’s performance management processes as
we enter into a new strategy cycle.

Recommendation No. 1: We recommend that USAID/Honduras ensure that awards
to support DR-CAFTA implementation under the new strategy clearly describe the
activities to be supported and the higher-level results they will contribute to.

The Mission concurs with this recommendation. The Mission will ensure that future
awards to support DR-CAFTA implementation clearly describe the activities to be
supported and the higher-level results that they will contribute to. This will be
documented through our new activity design documents under our new strategy.

Recommendation No. 2: We recommend that USAID/Honduras, under its new
strategy, finance an assessment or study to develop a prioritized list of actions
needed to implement DR-CAFTA.

The Mission concurs with this recommendation. Our current plans are to design a new
Trade & Investment program to replace FIDE-TIC (when and if sufficient economic
growth funds become available) and we will make the investment to finance a study to
develop a prioritized list of actions needed to implement DR-CAFTA and/or other trade
agreements to be supported by this new program.

Recommendation No. 3: We recommend that USAID/Honduras develop a
performance management plan for its Trade, Investment, and Competitiveness
program in line with its new strategy.

The Mission concurs with this recommendation. We will develop a PMP for any new
Trade & Investment program(s) developed under our new Country Assistance Strategy
(CAS). Once completed, this documentation will be available through the TEA office.

Recommendation No. 4: We recommend that USAID/Honduras develop
performance indicators to measure accomplishment of higher-level outcomes and
lower-level outputs under its new strategy plan for its Trade, Investment, and
Competitiveness program.

The Mission concurs with this recommendation. We will develop these indicators for any


                                                                                     19
                                                                               APPENDIX II


new programs developed under our new Country Assistance Strategy (CAS). These
indicators will be reflected in any new Trade & Investment program’s PMP and
implementing mechanisms awards.

Recommendation No. 5: We recommend that USAID/Honduras review USAID
directives and guidance regarding data quality assessments and conduct data
quality assessments of each indicator under the new strategy plan for its Trade,
Investment, and Competitiveness program in accordance with these directives
and guidance.

The Mission concurs with this recommendation. We will review USAID directives and
guidance regarding data quality assessments and conduct data quality assessments for
new Trade & Investment program indicators developed under our new Country
Assistance Strategy (CAS), in accordance with ADS and Operational Plan guidance. All
required assessments will be kept on file by the respective program’s CTO and updated
as required.

Recommendation No. 6: We recommend that USAID/Honduras establish
procedures requiring cognizant technical officers to periodically verify results
reported by partners under the Trade, Investment, and Competitiveness program.

The Mission concurs with this recommendation. The Mission will establish and/or
reinforce existing procedures requiring CTOs to periodically verify results reported by
partners for Trade & Investment programs under our new Country Assistance Strategy
(CAS). The results of these revisions will be documented and kept in the CTO’s program
files.

Recommendation No. 7: We recommend that USAID/Honduras review USAID
directives and guidance and develop mission procedures to ensure that portfolio
review requirements are met.

The Mission concurs with this recommendation. Based on a preliminary
recommendation to this effect provided by the audit team at the end of their audit visit,
the Mission’s Program Office proceeded to plan for our FY 2008 Annual Portfolio Review
ensuring that it conformed with Agency directives and guidance on this subject. Thus,
this Portfolio Review, including that for the TEA Office, were conducted in a manner that
met these requirements. The outcomes of the review were documented and made
available to the RIG for their review. Additionally, the Mission has instituted a semi-
annual portfolio review process to more effectively monitor and manage program
performance. Thus, this recommendation should be closed upon report issuance.

Recommendation No. 8: We recommend that USAID/Honduras correct its
reporting on the FY 2007 performance indicators for the Trade, Investment, and
Competitiveness program.

The Mission concurs with this recommendation. We will update the 2007 results
reporting to reflect the findings of the Audit at our next available window of opportunity to
go into to FACTS to make such changes.
                                                                /s/
                                                                William Brands,
                                                                Mission Director


                                                                                          20
U.S. Agency for International Development
        Office of Inspector General
       1300 Pennsylvania Ave., NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
